HHS/OIG, Audit -"Medicare Part B Payments for Ambulance Services Rendered to Beneficiaries
During Inpatient Stays: 2001 Through 2003,"(A-01-04-00513)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare Part B Payments for Ambulance Services Rendered to Beneficiaries
During Inpatient Stays:  2001 Through 2003," (A-01-04-00513)
March 17, 2006
Complete
Text of Report is available in PDF format (342 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit follows up on a prior review of nonphysician services provided during stays at
inpatient prospective payment system (PPS) hospitals in calendar years 1998-2000 (A-01-01-00502,
issued August 6, 2002).
The objective of our audit was to determine whether Medicare carriers made inappropriate
payments for ambulance services provided to PPS hospital inpatients.  During calendar
years 2001-2003, carriers inappropriately made Part B payments for 203,377 ambulance services
provided to PPS hospital inpatients.  As a result, Medicare potentially overpaid $21.7
million for ambulance services by paying twice:  once to the hospital as part of the
diagnosis-related group payment and again to the ambulance supplier under Part B.  Furthermore,
the Medicaid program, beneficiaries, or supplemental insurers could have paid more than $6.2
million in coinsurance and deductibles related to these potential overpayments.
We recommended that CMS:  (1) instruct the Medicare carriers to recover the $21.7 million
in potential overpayments, (2) establish payment controls to detect and prevent separate
payments for Part B ambulance services provided to beneficiaries during inpatient stays or
develop postpayment review procedures to identify suppliers that submit and receive payments
for inappropriate billings, and (3) alert the carriers to the most common types of payment
errors and help them to educate ambulance suppliers about such improper billings.  CMS
concurred with our recommendations.